<html>
<title> - THE ELECTRIC GRID OF THE FUTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                           THE ELECTRIC GRID
                             OF THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2018

                               __________

                           Serial No. 115-63

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov

             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-326PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbcabb49bb8aea8afb3beb7abf5b8b4b6f5">[email&#160;protected]</a>              
             
             
             
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   MARK TAKANO, California
ANDY BIGGS, Arizona                  COLLEEN HANABUSA, Hawaii
ROGER W. MARSHALL, Kansas            CHARLIE CRIST, Florida
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
STEPHEN KNIGHT, California           JERRY McNERNEY, California
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
NEAL P. DUNN, Florida                MARK TAKANO, California
RALPH NORMAN, South Carolina         EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                            
                            C O N T E N T S

                              June 7, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    16
    Written Statement............................................    17

                               Witnesses:

The Honorable Bruce J. Walker, Assistant Secretary, Office of 
  Electricity Delivery and Energy Reliability, Department of 
  Energy; Acting Assistant Secretary, Office of Cybersecurity, 
  Energy Security, and Emergency Response, Department of Energy
    Oral Statement...............................................    19
    Written Statement............................................    22

Dr. John Sarrao, Principal Associate Director, Science, 
  Technology, and Engineering Directorate, Los Alamos National 
  Laboratory
    Oral Statement...............................................    28
    Written Statement............................................    30

Mr. Robert Gramlich, President, Grid Strategies, LLC.
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. Joseph A. Heppert, Vice President for Research, Texas Tech 
  University
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

The Honorable Bruce J. Walker, Assistant Secretary, Office of 
  Electricity Delivery and Energy Reliability, Department of 
  Energy; Acting Assistant Secretary, Office of Cybersecurity, 
  Energy Security, and Emergency Response, Department of Energy..    74

Dr. John Sarrao, Principal Associate Director, Science, 
  Technology, and Engineering Directorate, Los Alamos National 
  Laboratory.....................................................    80

Mr. Robert Gramlich, President, Grid Strategies, LLC.............    82

Dr. Joseph A. Heppert, Vice President for Research, Texas Tech 
  University.....................................................    89

            Appendix II: Additional Material for the Record

Document submitted by Representative Donald S. Beyer, Jr., 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    94

 
                    THE ELECTRIC GRID OF THE FUTURE

                              ----------                              


                         THURSDAY, JUNE 7, 2018

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 1:07 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``The Electric Grid of 
the Future.'' I now recognize myself for five minutes for an 
opening statement.
    And by the way, we may have votes called just in short 
order, so we're going to probably be a little quicker than 
normal here, not that anything we do here is very normal.
    Today, we will hear from the Department of Energy (DOE), 
Los Alamos National Laboratory, the private sector, and Texas 
Tech University on research for creating the electric grid of 
the future. The goal of this research is to ensure energy 
delivery systems are reliable, resilient, and secure. A 
reliable grid delivers energy to consumers and businesses on 
demand regardless of the energy sources. A resilient grid keeps 
the energy flowing during an adverse event, such as a 
hurricane, and ensures a restoration of energy once an outage 
has occurred. A secure grid protects our energy infrastructure 
from hostile disruptions due to physical or cyberattacks, which 
are a growing risk as more industrial control systems are 
connected online.
    The DOE Office of Electricity Delivery and Energy 
Reliability (OE) is leading the early-stage research and 
development programs that promise to deliver advancements in 
grid technology. Small but mighty, OE has the least amount of 
funding for applied energy programs at DOE but carries out a 
vital mission through partnerships with industry and research 
conducted by the national labs.
    Los Alamos applies science expertise in physics, network 
science, algorithms, and applied mathematics to develop 
computational modeling and data analytics to help optimize 
modern electrical grids. Los Alamos developed these 
capabilities through its nuclear weapons mission. This kind of 
basic science expertise--with multi-disciplinary applications--
is part of what makes the national lab system an incubator for 
new technologies and continues to advance research beyond its 
originally intended goals.
    Academia and industry are also partners on grid 
modernization research. Texas Tech University hosts the Global 
Laboratory for Energy Asset Management and Manufacturing, or 
GLEAMM, facility that works to develop innovative power 
technologies and advance next-generation energy delivery 
technology. GLEAMM focuses on wind, solar, battery storage, 
cybersecurity, and microgrid technologies that will all 
encompass the electrical grid of the future.
    Advanced grid technologies can have a significant impact 
when the grid is faced with weather-related events that can 
threaten reliability. This month brings the official start of 
the 2018 hurricane season, and last year, communities in my 
home State of Texas, as well as Florida and Puerto Rico, lost 
power. Modern grid technology in Texas, such as the use of 
smart meters, were able to identify power outages and quickly 
help restore power after Hurricane Harvey.
    Unfortunately, while they have made significant progress 
rebuilding capabilities, there are still communities in Puerto 
Rico without power. That's why DOE, OE, and five national labs 
led by Argonne National Laboratory are working daily to provide 
grid modeling tools to Puerto Rico. The national labs are 
combining their current skills and capabilities in order to 
help Puerto Rico to plan, to operate, and to rebuild a more 
resilient grid. These models help grid operators better predict 
where the highest risk of power disruption could be and 
determine the potential impacts on critical power loads that 
support Puerto Rico's public health and its safety 
infrastructure.
    The national labs hope by improving existing grid models 
the island will be able to make key investments in resilient 
energy infrastructure before the current hurricane season. 
Additional analysis will inform Puerto Rico on long-term 
investment priorities for electrical transmission, 
distribution, renewable energy, battery storage, microgrids, 
and strategic power reserves.
    The partnership between the federal government, the 
national labs, academia, and industry has the potential to 
transform energy delivery systems. As we continue supporting 
advanced grid research, I would like to learn more about how 
DOE can improve the development of new technology and our 
understanding of electrical systems.
    I want to thank our panel of witnesses for their testimony 
today, and I look forward to a positive discussion about grid 
modernization research.
    [The prepared statement of Chairman Weber follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. I now recognize the Ranking Member of the 
Subcommittee, the gentleman from Texas, Mr. Veasey, for an 
opening statement.
    Mr. Veasey. Thank you, Mr. Chairman, and my fellow Texan, 
and everyone else that is here today, our distinguished panel.
    Just last week, I want to remind everybody that a White 
House memo was leaked that raised several questions. It 
detailed a plan to direct the Energy Secretary, also from 
Texas, to use authorities vested in him from the Federal Power 
Act and the Defense Production Act to save coal and nuclear 
power plants. Section 202 of the Federal Power Act has 
historically been used to address energy supply concerns 
related to natural disasters, other major energy shortages. 
Likewise, the Defense Production Act is a Cold-War-era statute 
that allows the President to nationalize elements of U.S. 
industry in the interest of national security.
    This proposal has been roundly criticized by a wide range 
of trusted independent experts, including Wall Street Journal 
editorial page, as poorly justified and legally dubious. Our 
utilities, States, and researchers do the hard work of 
hardening our energy infrastructure to cybersecurity threats 
and national disasters, and meanwhile, the Trump Administration 
is inventing emergencies to bail out coal and nuclear plants 
while ignoring the real problems.
    I'm sure the White House views this legal loophole that 
surfaced in the leaked memo as an easy way to try to fulfill 
campaign promises, which is very bad and very unsound when it 
comes to energy policy. However, the real impact has not been 
thought through by the Administration.
    It would wreak havoc on our energy markets and create a 
number of misaligned incentives. As severe weather, driven by 
climate change, becomes more intense and damaging to the 
electric grid, this Administration wants to address the problem 
by offering financial bailouts and picking winners and losers 
as it relates to coal, and any reasonable person would agree 
that this seems backward. Moreover, it wouldn't do anything to 
make the electric grid more resilient.
    The grid experts that have examined the issue would 
characterize our nation's priorities far differently than this 
politically motivated Administration does. That is why FERC 
unanimously--they unanimously rejected Secretary Perry's last 
proposal to bail out coal and nuclear power plants. And while 
the Trump Administration works with coal CEOs to craft a plan 
to benefit the industry's bottom dollar, the American people 
are being left behind.
    And I look forward to hearing today from Mr. Gramlich today 
on his recent report titled ``A Customer-Focused Framework for 
Electric System Resilience.'' I can't think of a better way to 
approach this issue. The purpose of the electric grid is to 
provide reliable, affordable power to customers. Any 
conversation that does not first consider the customer is not 
worth having.
    And while I am critical of these actions by Secretary Perry 
on grid resilience, I want to be clear that I strongly support 
developing advanced technologies to enable carbon capture on 
coal-fired power plants and the next generation of nuclear 
reactors. In fact, I just introduced a bipartisan bill, H.R. 
5745, the Fossil Energy Research and Development Act of 2018, 
that would authorize activities to support the development of 
technologies and methods for carbon capture, storage, 
utilization, and removal. It is the most comprehensive 
legislative proposal for fossil energy research in Congress 
today. So I certainly have no issues with federal support for 
these energy options. I just think that we need to be a lot 
smarter about how we approach these issues.
    We're very fortunate to have Assistant Secretary Bruce 
Walker with us today. I look forward to hearing justifications 
for the actions proposed by Secretary Perry in the White House 
memo, as it was proposed to FERC. I also look forward to 
hearing your priorities for the Office of Electricity.
    In the fiscal year 2019 budget proposal, the Administration 
requested a severe 37 percent cut to the Office of Electricity 
and reorganization of these investments. I'm sure we'll discuss 
that here shortly. And again, while I'm not opposed to the 
reorganization in concept, I'm curious how splitting DOE's 
smallest energy technology offices into two offices will ensure 
that these activities continue to be a priority in years to 
come.
    And before I close, I also would like to take some personal 
privilege to note that, unfortunately, this will be the last 
time that Joe Flarida will be staffing us here on the Committee 
at least in this Congress. That's because he recently won the 
Bosch Foundation Fellowship and will be heading to Germany in a 
few weeks. I know that staff on both sides of the aisle 
recognize that Joe has done a tremendous job for the 
Subcommittee in his time here.
    Sehr gut, Herr Flarida. Auf wiedersehen. And we look 
forward to seeing you when you come back.
    He played a very key role in negotiating a bipartisan, 
bicameral legislative package, the Department of Energy 
Research and Innovation Act, that has since passed the House 
and is now advancing in the Senate. And he was the lead staffer 
in developing and vetting language for the fossil energy 
research bill that I previously mentioned. That bill has now 
been endorsed by a broad and impressive coalition of 
stakeholders, and I know that would not have happened without 
all the hard work that Joe put into this effort.
    We wish you luck, and I hope that we can find a way to work 
together again. And I know you're going to have a great 
opportunity overseas. Congratulations, Joe.
    And, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Veasey follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you. I'm not sure what you said in 
German, but I did speak with Joe a few weeks back about them 
going over there and told him he needs to learn to speak 
German, but, more importantly, since they're thinking about 
starting a family, he better learn to speak wife. I'm just 
saying. So thank you, Mr. Veasey.
    I now recognize the Chairman of the full committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    The Subcommittee today is going to examine the Department 
of Energy's effort to modernize the electrical grid, and I very 
much look forward to hearing what our witnesses have to say on 
that subject.
    DOE, our national laboratories, and universities across the 
country are working to develop next-generation technologies 
that will make up our future electric grid. This critical 
research and development will help address vulnerabilities that 
range from cyberattacks to natural disasters.
    Another challenge is developing grid-scale battery storage 
and incorporating that into our electric grid. Renewable energy 
and distributed energy resources are changing the way 
electricity is produced and delivered throughout the nation. 
These energy sources are intermittent and depend on the sun to 
shine and the wind to blow. Without the capacity to efficiently 
store the energy produced from renewable energy, these 
resources can only make a minimal contribution to America's 
electricity needs. Energy storage is the key to modernizing the 
grid without sacrificing reliability.
    My home State of Texas offers a ready example of the impact 
battery storage could have on harnessing renewable power. Texas 
is the top wind-producing State in the country, so it's no 
surprise that Sandia National Laboratory chose to partner with 
Texas Tech University on a wind-energy field testing site in 
Lubbock, Texas. The Scaled Wind Farm Technology Facility, or 
SWiFT, brings together academia, industry, and the expertise 
found only at the national laboratories to test and develop 
wind energy technology. While SWiFT's primary objectives are to 
improve wind turbine performance and the efficiency of wind 
energy production, SWiFT also provides a testbed for supporting 
wind power with battery technology.
    Researchers at SWiFT are testing different battery 
chemistries and designs to harness the power of wind energy on 
demand. Breakthroughs in grid-scale battery storage technology 
will help incorporate renewable energy resources into the 
nation's energy mix. But scaling up batteries will necessitate 
addressing cost, efficiency, and size limitation problems. DOE 
research and development can provide these solutions and build 
the foundation for the next fundamental breakthrough in modern 
grid technology.
    And DOE continues to prioritize the Grid Modernization 
Initiative, a crosscutting research program that harnesses the 
skillsets of individual labs to develop new grid technologies. 
At Los Alamos National Laboratory, home to one of today's 
witnesses, researchers are developing new power system designs 
that will improve the reliability and resiliency of the grid. 
With the technical expertise developed through its nuclear 
weapons program, Los Alamos uses applied mathematics and 
advanced modeling capabilities to research multiple energy 
resource delivery systems.
    The national laboratories are also home to the Joint Center 
for Energy Storage Research Energy Innovation Hub. The DOE hub 
brings scientists, engineers, and manufacturers together in 
order to develop transformative energy storage technologies. 
H.R. 589, the DOE Research and Innovation Act, has passed the 
House and authorizes the Department of Energy Energy Innovation 
Hub program to continue this important collaborative research 
effort. By developing a better battery, national labs and 
universities can help the private sector lead the way and bring 
battery storage technology to the energy marketplace. This 
early-stage research will help create a modern, reliable, 
resilient grid, and that's what we all need in this country.
    Thank you, Mr. Chairman, and I'll yield back.
    [The prepared statement of Chairman Smith follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. I thank the gentleman for yielding back.
    It is now my distinct privilege to yield to the Ranking 
Member of the full committee, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Let me get 
my breath.
    Let me thank all the witnesses for being here today. DOE's 
Office of Electricity support programs that are critical to 
improving the flexibility and reliability to our electric grid 
while also enabling a broad range of clean energy resources to 
play a far larger role in our nation's power and transportation 
sectors. This is another reason that I'm so concerned about the 
Administration's budget proposal for the Department, which 
would cut funding for this office by 37 percent, and that 
overall cuts includes 62 percent cut to clean energy 
transmission and reliability, a 74 percent cut to smart grid 
research, and an 81 percent energy storage R&D.
    Despite the fact that Secretary Perry has now referred to 
energy storage as the Holy Grail of energy in several 
Congressional hearings, these large proposed cuts to energy 
reliability and resilience research are also curious in light 
of several recent proposals made by the Secretary to take 
unprecedented urgent actions that would prop up uneconomic 
power plants under the guise of ensuring the reliability and 
resilience of our electric grid.
    Independent experts across the political spectrum have 
resoundedly rejected these proposals in favor of far more 
rigorous, well-justified approach to addressing these issues, 
while continuing to make substantial progress toward our 
nation's clean energy future. And I believe Mr. Gramlich will 
be able to discuss more--in more detail. There's no reason that 
we can't have a secure, clean, reliable, and resilient energy 
sector that takes advantage of a broad range of our resource 
and technology options, including renewables, energy storage, 
nuclear power, and fossil fuels with carbon capture without 
going to such an extreme of ill-conceived lengths to save one 
particular resource at the expense of the others.
    Lastly, I'd like to take this opportunity to note sadly 
that this will be the Committee's last hearing staffed by Joe 
Flarida at least for now. He will--he's worked for us over the 
last five years, started out as an intern, and rising to become 
one of the top staffers of our Energy Subcommittee team. He's 
done an outstanding job. He's the son of a nurse. He's a highly 
professional--he's done highly professional work throughout his 
time on the Committee, including developing several 
substantive, well-vetted, bipartisan legislative proposals that 
I'm confident will continue to advance even as he moves to 
bigger and better things.
    He's leaving because he's won the prestigious Bosch 
Foundation Fellowship. In a few weeks, he'll be moving to 
Germany for one year. And I'd like to congratulate you, Joe, 
and wish you well and hope you'll come back to see us after 
you've made our country proud.
    I thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. The gentlelady yields back, and I do echo 
her comments. Can we all give Joe a hand?
    [Applause.]
    Chairman Weber. I will introduce the witnesses. Our first 
witness today is Hon. Bruce Walker, the Department Of Energy's 
Assistant Secretary for the Office of Electricity and the 
Acting Assistant Secretary for the Office of Cybersecurity, 
Energy Security, and Emergency Response. Assistant Secretary 
Walker has more than 25 years of electric utility experience, 
previously working as the Vice President of Asset Strategy and 
Policy at National Grid and Director of Corporate and Emergency 
Management at Consolidated Edison of New York. He is the 
founder of Modern Energy Insights, Inc., and the cofounder of 
Global Smart Grid Federation. Assistant Secretary Walker has 
served as a member of DOE's Electricity Advisory Committee, an 
advisory committee for the Megawatt-Scale Integration Lab, and 
was a member of GridWise Alliance, Incorporated.
    He was confirmed as Assistant Secretary by the United 
States Senate in October of 2017. He holds a bachelor of 
electrical engineering from Manhattan College and a juris 
doctorate in law from Pace University where he was the 
technical editor on the Environmental Law Review. Welcome, Mr. 
Walker.
    Our next witness is Dr. John Sarrao--am I saying that 
right? Okay--the Principal Director for Science, Technology, 
and Engineering at Los Alamos National Laboratory. Previously, 
Dr. Sarrao was the Program Director for Los Alamos Office of 
Science Programs and Matter-Radiation Interactions in Extremes 
facility. From 2013 to 2018, he served as LANL's Associate 
Director for Theory, Simulation, and Computation where he 
applied science-based predictions to existing and emerging 
national security missions.
    Dr. Sarrao has held a number of leadership positions within 
LANL's materials community, including Division Leader of the 
Materials, Physics, and Application Division and Group Leader 
of Condensed Matter and Thermal Physics. He has also served on 
a number of DOE Basic Energy Sciences Advisory Committees 
(BESAC) subcommittees, helping to set strategic directions for 
materials research.
    Dr. Sarrao is a Fellow of the American Association for the 
Advancement of Science, the American Physical Society, and Los 
Alamos National Laboratory. He received his Ph.D. in physics 
from the University of California Los Angeles. Welcome, Doctor.
    Mr. Rob Gramlich, our next witness, is President of Grid 
Strategies, LLC. Prior to his current position, Mr. Gramlich 
oversaw transmission policy at the American Wind Energy 
Association as Senior Vice President for Government and Public 
Affairs, Interim CEO, and Policy Director. He was Economic 
Advisor to FERC Chairman Pat Wood, III, from 2001 to 2005. He 
has served on advisory committees for the United States 
Department of Energy and the North American Energy Standards 
Board as Vice Chair of the Business Council for Sustainable 
Energy and as Interim Executive Director of the Wind Energy 
Foundation.
    Mr. Gramlich has been the recipient of Energy Systems 
Integration Group Award, American Wind Energy Association's 
Technical Achievement Award, and the FERC's Exemplar of Public 
Service Award. He received a bachelor of arts with honors in 
economics from Colby College and a master of public policy from 
the University of California Berkeley. Welcome, Mr. Gramlich.
    I now recognize the Chairman of the full Committee, Mr. 
Smith, to introduce our last witness.
    Chairman Smith. Okay. Thank you, Mr. Chairman. I appreciate 
being able to introduce our last witness today, and that is Dr. 
Joseph Heppert, who is Vice President for Research at Texas 
Tech University. It so happens that my district includes 
Fredericksburg, Texas, which has a satellite campus of Texas 
Tech with about 200 students, and believe me, I leverage that 
to the maximum extent possible.
    We are glad to welcome Dr. Heppert today to hear about how 
Texas Tech is contributing to research that benefits the 
electric grid. Previously, Dr. Heppert served as Associate Vice 
Chancellor for Research at the University of Kansas. He also 
chaired KU's Chemistry Department and was the founding Director 
of the University Center for Science Education.
    Dr. Heppert has been active in projects to improve science 
teaching and science teacher preparation and is the past Chair 
of the American Chemical Society's Committee on Education. He 
is a fellow of the American Chemical Society and currently 
serves as Chair of the American Chemical Society's Committee on 
Budget and Finance.
    Dr. Heppert received a bachelor of science in chemistry 
from San Jose State University and a Ph.D. in inorganic 
chemistry, often thought to be the toughest subject, from the 
University of Wisconsin Madison.
    Dr. Heppert, we welcome you and appreciate what Texas Tech 
is doing.
    I yield back, Mr. Chairman.
    Chairman Weber. Thank you, Mr. Chairman, and thank you to 
all the witnesses for being here today.
    I now recognize Assistant Secretary Walker for five minutes 
to present his testimony.

          TESTIMONY OF THE HONORABLE BRUCE J. WALKER,

      ASSISTANT SECRETARY, OFFICE OF ELECTRICITY DELIVERY

         AND ENERGY RELIABILITY, DEPARTMENT OF ENERGY;

      ACTING ASSISTANT SECRETARY, OFFICE OF CYBERSECURITY,

            ENERGY SECURITY, AND EMERGENCY RESPONSE,

                      DEPARTMENT OF ENERGY

    Mr. Walker. Thank you, Chairman. Chairman Weber, Chairman 
Smith, Ranking Member Veasey, and Ranking Member Johnson, and 
distinguished Members of the Subcommittee, I appreciate the 
opportunity today to discuss the priorities and research 
programs within the Department of Energy's Office of 
Electricity and Office of Cybersecurity, Energy Security, and 
Emergency Restoration.
    The Department of Energy is focused on ensuring that the 
energy infrastructure is capable of securing our national 
security. Therefore, the resilience and reliability of the 
nation's electric grid is of the utmost importance. OE and 
CESER collaborate with industry, academia, state and local 
governments, and other energy sector stakeholders on numerous 
research and development programs to achieve these objectives.
    Using the definitions set forth in the Presidential Policy 
Directive 21, resilience is defined as, ``the ability to 
prepare for and adapt to changing conditions and withstand and 
recover rapidly from disruption. Resilience includes the 
ability to withstand and recover from deliberate attacks, 
accidents, or naturally occurring threats or incidents.''
    DOE, which is a national security agency with a 
comprehensive intelligence community-informed view of 
resilience, recognizes that the energy sector has been the main 
focus of cyber and physical threat attacks. I will seek to 
highlight the actions we at DOE are taking to address the very 
real risks we face.
    First, the former Office of Electricity Delivery and 
Reliability has been divided into two separate departments in 
order to significantly increase the focus commensurate with the 
known risk of cyber and physical threats, thereby creating the 
Office of Cybersecurity, Energy Security, and Emergency 
Response, as well as the Office of Electricity.
    My office's first priority is the creation of a North 
American Energy System Resiliency model. This model capitalizes 
on previous national lab work and is being leveraged to fully 
understand the resiliency risks associated with operating a 
highly diversified, regionally isolated grid that supplies 
electric energy for North America. Most importantly, the model 
will include analysis regarding the significant 
interdependencies that have evolved over the last couple 
decades between the various energy infrastructures.
    Significantly, the model will highlight where there are 
strategic opportunities for specific capabilities offered by 
certain types of infrastructure, for example, energy storage 
for frequency control. Most importantly, from DOE's vantage 
point, the model will inform national security investments that 
will improve our overall resiliency capability.
    Another priority for OE is to revolutionize sensing 
technology utilization. The goal is to use high-fidelity, 
reasonable cost-sensing technology to integrate near real-time 
data into the North American grid model. We will also be able 
to use signature recognition and correlation modeling informed 
by artificial intelligence and machine-to-machine learning to 
significantly improve the performance of the grid. Furthermore, 
these efforts will enable strategic investments by highlighting 
system vulnerabilities and enhance the integration of 
distributed energy resources in the use of microgrids and 
energy storage.
    Storage, the Holy Grail of energy, has a huge role to play 
in national security. There are various initiatives within DOE 
focused on storage from pump storage to flow batteries. There 
has never been a time where the availability of megawatt-scale 
storage has been more important. OE is pursuing storage 
technology capable of providing reactive and real-power control 
for bulk and distribution power systems, as well as frequency 
control.
    Working with the national laboratories, OE is pursuing 
three high-probability capabilities: flow batteries using 
aqueous soluble organics, sodium-based batteries, and 
rechargeables--zinc manganese dioxide batteries.
    The potential contributions of storage to enhance national 
security across North America are astounding. OE and CESER are 
members of the Grid Modernization Initiative. The GMI focuses 
on the development of new architectural concepts, tools, and 
technologies that will better measure and analyze, predict, and 
protect the grid. Originally consisting of OE and the Office of 
Energy Efficiency and Renewable Energy, the GMI has been 
expanded to include CESER, the Office of Fossil Energy, and the 
Office of Nuclear Energy to ensure a coordinated and 
comprehensive DOE approach to R&D.
    The Grid Modernization Lab Consortium is part of the GMI, 
and it established a strategic partnership between DOE and the 
national labs. We are presently defining the next multiyear 
plan to continue our efforts for our R&D projects within--with 
our labs.
    In conclusion, the energy sector continues to face 
challenges and threats every day. The Department continues to 
pursue diverse yet targeted R&D projects to further enhance the 
resilience and reliability of our nation's grid and energy 
infrastructure necessary to ensure national security. The 
cutting-edge technologies developed at our national labs and 
the ongoing research and development conducted in collaboration 
with our public- and private-sector partners will continue to 
strengthen the resilience and reliability of the grid for years 
to come.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Walker follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, sir.
    Dr. Sarrao, you're recognized for five minutes.

                 TESTIMONY OF DR. JOHN SARRAO,

                 PRINCIPAL ASSOCIATE DIRECTOR,

                      SCIENCE, TECHNOLOGY,

                  AND ENGINEERING DIRECTORATE,

                 LOS ALAMOS NATIONAL LABORATORY

    Mr. Sarrao. Chairman Weber, Chairman Smith, Ranking Member 
Veasey, Ranking Member Johnson, members of the subcommittee, 
thank you for the opportunity to address future research 
opportunities for the United States' electric grid and to 
describe the many benefits and reduced risks that would result 
from a more integrated, resilient, and modernized grid 
infrastructure.
    My name is John Sarrao, and I'm the Principal Associate 
Director for Science, Technology, and Engineering at Los Alamos 
National Laboratory in New Mexico. My personal research and 
technical leadership career has emphasized national security 
science from plutonium physics research to advanced materials 
design and discovery to stewarding Los Alamos' high-performance 
computing resources and simulation capabilities.
    Energy security is a national security priority, and Los 
Alamos National Laboratory has contributed meaningfully to 
energy security in general and grid resilience research in 
specific for many years. The challenges that today's domestic 
electricity grid face include the need for enhanced resilience 
against both natural events and external actors, robust 
optimization and control capability for integrating renewables, 
and expanded tools for grid operators to detect anomalies, 
including the effective utilization of machine-learning 
methods.
    In responding to these challenges, Los Alamos brings 
expertise in physics and engineering, applied math and 
statistics, and simulation and computation. We further have a 
proven track record of providing mission-centric reach-back 
expertise in weapons physics and design, including weapons 
effects, high-fidelity and multiscale earth systems modeling, 
and space science and space weather capabilities.
    Finally, Los Alamos is deeply committed to workforce 
development and idea dissemination, hosting a regular Grid 
Science Winter School and Conference to help educate and expand 
the grid research community.
    To further support these efforts, Los Alamos has launched 
the Advanced Network Science Initiative, ANSI. ANSI is designed 
to facilitate cross-project basic and applied research that is 
focused on modeling and understanding the nation's critical 
infrastructures such as electric power, water, petroleum, and 
natural gas.
    Given our demonstrated history in infrastructure analysis 
and grid research, Los Alamos was excited to participate in the 
Grid Modernization Laboratory Consortium, the GMLC, beginning 
in fiscal year 2016. The initiative has allowed a number of 
national laboratories to work together, bringing their 
complementary capabilities to bear on key challenges and 
delivering positive impacts for our electricity grid.
    As we look to the future of grid research both under the 
auspices of GMLC and more broadly, Los Alamos sees several 
important challenges that need to be addressed: first, complex 
threats to U.S. power systems. U.S. power systems are 
potentially vulnerable to large-scale impacts from complex 
threats, including geomagnetic disturbances and electromagnetic 
pulses from a high-altitude nuclear detonation.
    Second, cyber physical threats. Cyber or combined cyber and 
physical attacks on infrastructure can have widespread and 
lasting impacts on critical infrastructure. Developing a cyber-
physical impact and consequences modeling and simulation 
capability will enable stakeholders to assess the possible 
consequences of different types of cyber attacks on critical 
infrastructure and prioritize additional investments.
    Third, gas-grid coupled systems. Natural gas pipelines are 
a key energy infrastructure for the United States, and they are 
only becoming more so with the addition of supply from 
unconventional natural gas resources. The expansion of central-
plant natural gas-fired electric generation in the electric 
transmission system and the expected expansion of gas-fire 
distributed generation in the electric distribution system 
would further expand that.
    And fourth, grid-water network coupling and control. 
Potable and wastewater systems are major electrical loads that 
can be controlled to the benefit of both the water and 
electrical systems. With storage naturally built in, potable 
water networks are an infrastructure that could play a key role 
in advanced control and optimization of the electrical system. 
However, these water resources must also maintain their own 
reliability and resilience.
    I appreciate the opportunity in these brief remarks to 
describe some of the future challenges and research 
opportunities for the United States' electric grid that we see 
at Los Alamos. Success in these endeavors would result in a 
more integrated, resilient, and modernized grid infrastructure. 
The Grid Modernization Laboratory Consortium has been a 
positive step forward in addressing these issues, and Los 
Alamos has been proud to play a role in GMLC with our peer 
national laboratories. As we look to the future, we see 
additional challenges in responding to complex threats, 
including cyber-physical challenges, to our grid 
infrastructure, and in considering the integrated systems of 
systems represented by our coupled gas and electrical 
infrastructure at both the transmission and distribution 
scales.
    In closing, I would like to thank you again for the 
opportunity to appear before the Subcommittee. I look forward 
to answering any questions that you might have.
    [The prepared statement of Mr. Sarrao follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Doctor.
    Mr. Gramlich, you are recognized for five minutes.

               TESTIMONY OF MR. ROBERT GRAMLICH,

                PRESIDENT, GRID STRATEGIES, LLC.

    Mr. Gramlich. Thank you, Chairman Weber, Ranking Member 
Veasey, and Members of the Subcommittee, for inviting me to 
testify on the electric grid of the future.
    Since modern society requires affordable, clean, and 
reliable electricity for most commercial and personal pursuits, 
there is no infrastructure more important than the interstate 
electric network. While reliability is very high and growing, 
as reported by NERC just today over at FERC across town, the 
grid is evolving rapidly and threats are changing. We need to 
expand grid capacity, implement protections against severe 
weather and cyber and physical attack, and make more efficient 
use of the existing grid.
    DOE's Office of Electricity (OE) can play a key role in 
each of these areas. OE can contribute by continuing research 
development and demonstration of new technologies for the grid, 
promoting grid expansion through permitting and studies, 
developing and bringing grid operations technologies to market, 
developing customer and reliability and resilience options for 
critical uses such as military facilities and hospitals, and 
supporting studies of bulk power system reliability to address 
the evolving resource mix and evolving threats.
    The National Academies of Sciences recently had a 
resilience report that had 12 recommendations. Eight of those 
were for DOE. OE could play a lead role in implementing those 
recommendations.
    Given the importance of a reliable electric grid to modern 
society and the critical role it plays in integrating new both 
centralized and distributed resources and managing various 
threats, OE should have far greater resources than it has. At 
the same time, OE resources and attention should not be 
diverted to support the recently announced presidential 
directive to extend the lives of old coal and nuclear plants. 
Subsidizing such resources will ultimately harm rather than 
help customers, and OE's work on it will detract from its 
otherwise important mission.
    There is no basis for this directive or for DOE action 
under the Federal Power Act, section 202(c); or the Defense 
Production Act. The directive ignores some basic facts about 
electricity. It ignores that coal and nuclear plants are just 
as susceptible to cyber attack as any other facility. It 
ignores the fact that coal plants have fuel delivery 
interruptions and often have mechanical failures during cold 
weather. It ignores the fact that both coal and nuclear plants 
are particularly vulnerable to droughts, and there is some 
evidence to suggest EMP attacks as well. And it ignores that 
coal and nuclear plants shut down in response to voltage 
infrequency deviations and a narrower band of tolerance than, 
for example, wind plants. This is actually what happened in the 
2003 blackout affecting 50 million people when a large 
FirstEnergy coal plant automatically shut itself down.
    The point here is not to--oh, I should also say the 
directive ignores that 50-year-old plants have outage rates 
that are typically three times as high as new plants. So the 
point here is not to criticize any one technology or couple of 
technologies. All technology, all generating resources have 
their strengths and weaknesses and contribute to reliability 
and resilience in different ways, but none of them are 
essential.
    Reliability comes from having reserves. All generators fail 
to operate at some point. In fact, each region already has a 
strategic electric generation reserve. It's called a reserve 
margin, and they are in a significant surplus condition right 
now in most regions. So whether or not there are national 
security interests at stake, the proposed solution will not 
help.
    Due to the futility of this directive, OE should steer 
clear of it and focus on what matters for electricity 
customers. OE's modeling to support the bailout plan should be 
scrutinized carefully so that resources are not diverted from 
valuable work on reliability, resilience, efficiency, and the 
grid's evolution, given changes in the resource mix and 
evolving threats. It will be important for Congress to 
rigorously oversee the Department of Energy and OE specifically 
to ensure that important work gets done and taxpayer dollars 
are not wasted on ill-conceived programs.
    Thank you.
    [The prepared statement of Mr. Gramlich follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Dr. Heppert, you're recognized for five 
minutes.

              TESTIMONY OF DR. JOSEPH A. HEPPERT,

                  VICE PRESIDENT FOR RESEARCH,

                     TEXAS TECH UNIVERSITY

    Dr. Heppert. Good morning, Chairman Weber, Chairman Smith, 
and Members of the Subcommittee. I'm Vice President for 
Research and Professor of Chemistry at Texas Tech University, 
and I'm pleased to address you today on behalf of Texas Tech 
University.
    Texas Tech University's original mandate was to serve the 
educational needs of the citizens of West Texas, but its 
ambitions, as framed by its first President, have always been 
to make a mark in education, scholarship, and innovation for 
the nation and the world.
    Today, Texas Tech University--or ``Tech'' as it's often 
referred to--ranks among the major public research universities 
in the United States. As many of you know from working with 
research universities in your states and districts, these 
institutions play a critical innovative role in defining the 
future of energy grid research.
    Both natural hazards and actions by our adversaries can 
pose significant threats to our grid. In--the 2017 hurricane 
season was a harrowing reminder of the intense suffering and 
economic loss that natural events can inflict on regional 
scales. Communities in Texas, Florida, and Puerto Rico were--
and in some cases continue to be--devastated in the aftermath 
of these storms. Based on modern scientific models of future 
weather events, the world can expect more frequent and more 
intense disruptions of this nature.
    At the same time, there's a growing consensus that future 
conflicts among major military and economic adversaries may 
involve preliminary skirmishes in cyberspace with grid 
infrastructure as a prime target. Indeed, some recent cases 
provide indications that both state and nonstate actors have 
already targeted and demonstrated an ability to threaten our 
grid. On top of this, any grid of tomorrow must be developed 
with the assumption that the market for renewable energy 
generation will only continue to grow and, in turn, provide a 
more decentralized and therefore resilient system.
    In light of these challenges and with generous support of 
the State of Texas, Department of Energy, and partners in 
industry and at the national laboratories, Texas Tech has been 
working hard to address a central question: How can we make the 
U.S. energy grid more secure, reliant, robust, and, perhaps 
most importantly, resilient when under threat?
    Through the pioneering work of faculty at Texas Tech, we're 
providing answers. Dr. BeiBei Ren in Texas Tech University's 
Whitaker College of Engineering has developed a novel 
architecture for smart grids that allows an array of diverse 
power sources to interface with the grid. Her research has 
overcome a major hurdle to enabling reliable, resilient, and 
affordable grid integration of renewables with the real-world 
applicability of helping to rebuild Puerto Rico's communication 
infrastructure post-Hurricane Maria.
    Dr. Stephen Bayne, a senior faculty member in the Whitaker 
College of Engineering's Department of Electrical Engineering, 
is a distinguished power grid researcher. Dr. Bayne's group 
continues to develop techniques that enable grid integration 
when incorporating renewable energy sources and have placed a 
number of instruments across Texas to monitor grids in near 
real time. This research, when coupled with innovative models 
to determine and predict the performance of systems relying on 
distributed generation such as wind, is critical to a more 
resilient and reliable grid.
    In 2015, the State of Texas provided $13 million for Texas 
Tech University and several partners to construct GLEAMM. When 
fully operational later this year, the Global Laboratory for 
Energy Asset Management and Manufacturing will provide a world-
class distributed generation microgrid and unique platform for 
field-testing certification and optimization of renewables and 
grid systems, new hardware and software solutions for managing 
grid function, and cybersecurity of grid systems. This work 
would not be possible without the support of Secretary Rick 
Perry. His vision as Governor of the State of Texas was 
critical to making this facility possible.
    The innovative team of researchers across Texas Tech 
University is committed to a research vision that enables the 
electric grid of the future. Over the next four years, we 
intend to invest a minimum of $8 million in research into 
cybersecurity and energy grid resiliency to enable the creation 
of a sustainable and diverse energy economy. We're confident 
this investment will help the nation attain its goals in energy 
security, traditional and alternative energy utilization, and a 
21st-century energy grid.
    I'm proud to have the opportunity to share Texas Tech's 
capabilities, our expansive vision for the future, and serve as 
a resource for this subcommittee. I look forward to answering 
your questions. Thank you for this invitation, and, go Tech.
    [The prepared statement of Dr. Heppert follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. I'll leave that alone.
    So they've called votes, so we're going to recess, and we 
will reconvene immediately following the last vote.
    [Recess.]
    Chairman Weber. This hearing is now reconvened. I thank the 
witnesses for their testimony. The Chair recognizes himself for 
five minutes of questioning.
    Mr. Walker, in your testimony, you stress that OE's 
priorities are the development of grid modeling capabilities, 
megawatt-scale grid storage, and the Grid Modernization 
Initiative. As the smallest of the applied energy offices at 
DOE, how are you able to accomplish your research and 
development goals with a tight budget, number one? I guess, 
essentially, how does the OE do more with less? What do you 
say?
    Mr. Walker. Thank you, Congressman, for the question. The 
focus with OE is definitely on those three things, as well as 
sensing technology. And how we accomplish our mission is 
through the hard work of the people within OE and CESER working 
in concert with the other applied sciences at DOE, so among 
fossil energy, nuclear energy, and the energy efficiency, 
primarily relying on the platform of the GMI, the GMLC, and 
that's in fact why we expanded the charter to include those 
other applied sciences to be able to leverage and ensure that 
the investments we make are the best across the entire 
department and to leverage the resources, you know, equally 
from a national security perspective.
    Chairman Weber. So prioritize. The programs within OE are 
squarely within the applied energy mission of the Department, 
and OE research goals are closely tied to the needs of the 
energy industry. The Department's fiscal year 2019 budget 
request places an importance on federal funding only toward 
early-stage research programs--only towards early-stage 
research programs. What steps have you taken to ensure 
responsible stewardship of those taxpayer dollars by funding 
only the R&D that cannot be performed by the energy industry?
    Mr. Walker. So at OE we focus very much on early-stage 
research, utilizing our capabilities both on the CESER side, as 
well as OE, to identify where are the cutting-edge technologies 
that will not be, by virtue of the cost and, more importantly, 
the intellectual capability that is realized through our 
national labs. So we identify, using a risk-based approach, how 
to best invest that money.
    Chairman Weber. I thank you. Dr. Heppert, this question is 
for you. In your testimony, you explain how Texas Tech 
University partners with both Sandia National Lab and the 
private industry to conduct research. What is the difference 
between research conducted at the GLEAMM facility and the 
research conducted at the Sandia SWiFT site? And should there 
be more coordination between the national labs and academia on 
grid challenges like those identified in the GMI?
    Dr. Heppert. Sure. I think there's a degree of commonality 
in terms of some of the research. The SWiFT site really has 
been a testbed for understanding windfarms and the fundamental 
impact of atmospherics and of fluid flow through windfarms. 
We've got highly instrumented systems there with radar that can 
help us model that and help us understand the impact of 
environmental circumstances on the performance of those 
systems. So it's really in part about predictive modeling and 
understanding how to optimize the configuration and structure 
of future windfarms, okay?
    The GLEAMM system is really going to be a testbed that will 
allow us to actually connect to some of these existing 
resources in addition to some resources that are held in the 
private sector nearby of both wind power, solar power, and 
battery capabilities. The focus there is really going to be on 
being able to testbed new technologies, both software and 
hardware technologies, to allow us to understand how to better 
integrate those and more seamlessly integrate those systems; 
model in real time, be able to model conditions that are going 
to lead to grid--potentially to grid failure; and understand, 
using artificial intelligence strategies, how we can more 
effectively integrate these; and also how we can improve and 
enhance the economics of utilizing energy from these systems as 
well.
    So I would say on the one side we're talking about looking 
more at the fundamentals of wind, and we're very pleased on 
that side that we'll be helping to cohost the wind blade design 
conference that Sandia has held for many years at Sandia this 
year in Lubbock. But on the other side, we're looking more at 
how we truly integrate these other technologies effectively. 
And it'll be a great testbed for being able to take, as I said, 
both AI technology and new power grid technologies hardware and 
integrate them into a system.
    Chairman Weber. Thank you for that. Can you get the dates 
of that conference to our staff here?
    Dr. Heppert. I'll be happy to do that.
    Chairman Weber. Yes, okay. Thank you.
    At this time the Chair recognizes Mr. Takano for five 
minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Heppert and Dr. Sarrao, the Trump Administration has 
proposed a 37 percent cut in fiscal year 2019 for the Office of 
Electricity, or OE, which stewards the largest portion of our 
federal investments in grid research. Within OE, the budget 
proposes a number of steep cuts to important research, 
including a 74 percent cut to smart grid research, a 67 percent 
cut to clean energy transmission and reliability, and an 81 
percent cut to energy storage research and development.
    I just want to know from all of you, what role do you think 
energy storage and the development of battery storage can play 
when it comes to distributing wind and solar, as well as grid 
resilience?
    Dr. Heppert. Well, I would say that the magnitude of the 
cuts you're referring to are quite concerning. We're dealing 
with technologies here that are in--really in development. The 
challenges we're facing in terms of the scale of renewables 
that have to be integrated into the grid has changed 
dramatically over the last five years. The challenges 
associated with both creating a resilient system, understanding 
how to use battery technology effectively in order to create a 
stable microgrid system, a regional grid system, and doing the 
kind of effective modeling on how to optimize those systems, 
those are all landscapes that are changing. And in addition to 
that you'll recognize what we--a number of us talked about with 
regard to the security issues, which is a constantly changing 
landscape as well.
    So I think federal funding is critically important, 
sustained federal funding is critically important for us to be 
able to take advantage and leverage some of the model systems 
that we developed across the country, including what's going on 
within the SWiFT and GLEAMM programs at my institution but also 
other institutions.
    So as far as impact is concerned on our programs, I would 
see, you know, in any one year we're in the vicinity of $2.5 
million worth of funding that could potentially be impacted by 
some of those cuts, and that--again, that would make it very 
difficult for us to leverage the investment that the federal 
government, the national labs, and the State of Texas have 
already made in some of the unique model systems we have on our 
campus.
    Mr. Sarrao. Yes, thank you for the question. As you know, 
certainly a decrease in budget would create challenges. I think 
from a Los Alamos perspective, one of our goals is to use 
capabilities that derive from our broader national security 
mission focused on challenges of grid modeling so that we can 
diversify our efforts in that regard. Certainly, our focus on 
early-stage research, as well as partnerships like the GMLC 
enable--cause us to be as effective as we can be.
    And then to your question about energy storage, I think 
thinking both about fundamental, for example, materials and 
chemistry research and energy storage and how you think about 
that in the broader context of the electricity grid is 
something that our grid modeling efforts help enable so that we 
find the right challenges to focus on to address the problems 
in an environment that's potentially fiscally constrained.
    Mr. Takano. Yes. So, Mr. Gramlich, in your testimony you 
note that the recent DOE grid reliability staff report found 
that, quote, ``Increased deployment of solar and wind does and 
will not negatively impact the operation of the grid.'' Mr. 
Gramlich, what role do you think energy storage and development 
of battery storage can play when it comes to distributing wind 
and solar, as well as grid resilience?
    Mr. Gramlich. Thank you for the question. I think energy 
storage can provide many services to the grid, to customers, 
specifically to distribution systems, transmission systems, and 
it provides services that are typically considered generation 
services, so it's really the only technology that sort of 
provides almost some of everything. It will be, I think, 
important when we get to very high renewable energy futures. 
You can integrate a whole lot of wind and solar I think without 
a huge amount of storage now currently in most regional grids, 
but certainly island systems and other areas require more 
balancing. And, over time, as penetrations of renewable 
variable resources grow, storage will become more and more 
important.
    Mr. Takano. Well, great. Thank you. My time is up, Mr. 
Chairman. I can yield back, please.
    Chairman Weber. Okay. The Chair now recognizes the 
gentleman from Alabama, Mr. Palmer, for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Walker, can you speak to the concerns that the more 
connected the grid becomes, the more vulnerable it becomes to 
cyber attacks similar to, you know, what happened in Ireland 
last year?
    Mr. Walker. The--as Dan Coats, our Director of National 
Intelligence, noted, the--we are recognizing more frequent and 
more sophisticated cyber threats. There is no question that the 
grid is vulnerable to cyber threats, whether they're isolated 
or whether they're fully integrated. What is clear, as we 
introduce cyber-enabled technologies through the Internet of 
Things and the advancements of things like smart grids, we 
introduce more and more devices on the system that have the 
capability of being penetrated through cyber, so it is 
extremely important that, as we develop these newer 
technologies and as we integrate additional technology on the 
system, that we do it with a cybersecurity focus.
    We have just recently issued a funding opportunity for $25 
million back into the oil and natural gas as well as electric 
sector to look at the architecture and the design of cyber-
enabled devices to--in order to stave off the risk as we move 
forward and capitalize on the existing underlying physics of 
the system.
    Mr. Palmer. Well, I understand we want to protect our 
systems from being hacked, but also, I think we've had some 
experiences, particularly in the last few years, with 
hurricanes and in the last couple of decades with Katrina and 
others where we lost whole sections of the power grid, and one 
of my concerns is if we had a major cyber attack or an EMP 
attack is whether or not you have redundant systems. And I 
don't mean just having equipment to replace equipment that's 
been fried basically or whether or not you're--how quickly 
you're able to shift from a technology-controlled system to a 
manual system, whether or not you have trained employees that--
I see you're nodding your head there.
    Those are the concerns that I have is in terms of 
preparation is how long would it take and, depending on the 
time of year, how serious restoring power would become. And so 
that--Mr. Chairman, I think that's part of what we've got to 
figure out here is in the event that we have an attack like 
that, that, you know, in cases with the storms, it takes 
anywhere from a day to a week. You--that's tolerable. But if 
you get into a situation where you have a massive loss of 
equipment and you can't shift to a manual system, then you 
really got a problem. Our--is that some of the things that----
    Mr. Walker. That's absolutely----
    Mr. Palmer. --I'm sure you're thinking through that.
    Mr. Walker. That's absolutely what we are 100 percent 
focused on. So under the FAST Act, there was a requirement for 
the Secretary to identify defense-critical electric 
infrastructure, and we continue to evolve that list of critical 
infrastructure with an understanding of what the impact is 
across the 16 critical infrastructure sectors throughout the 
United States. And we are developing within OE operational 
strategies that are--we're executing on some of those now to 
better ensure that when we do have those widespread events, 
whether it be cyber or hurricane, that we have capability to 
restore the system, whether that be--and that's one of the 
focuses of having a fuel-secure generation source. When we have 
that, we don't have to rely on the supply chains and the risks 
associated with supply chains that might get realized during 
something like a cyber event or a hurricane where there's 
destruction from, you know, the port all the way to any 
facility.
    Mr. Palmer. Maybe Mr. Gramlich and Mr. Heppert could 
address this, but when you're talking about a massive loss of 
the grid and you look at it in the context of what--what's the 
first thing we do when we have a major storm? We go in with 
food and water and medicine, that sort of thing. And a massive 
loss of the grid, that will be the number one thing because 
most people depend on the grocery store for their food and 
sustenance, things like that. So it's going to become 
absolutely critical that we either have redundant systems or 
the ability to shift to a manual system. And I'll let the 
gentlemen respond to that, Mr. Chairman.
    Mr. Gramlich. I think you're absolutely right, Congressman, 
that preparing for that situation in advance, low probability 
as it may be, is absolutely something that needs to be done. 
Personally, I think the National Academies of Sciences' report 
recently was strong, had good recommendations in that area, so 
I would commend that for more information.
    Dr. Heppert. I'd come back again to the concept that having 
both diverse grids and grids that have survivability at the 
local level where you can go down from a macroscopic grid to a 
microgrid, which will still operate and where you can bring up 
portions of that grid rapidly as the technology becomes 
repaired without risking bringing down the system again as a 
result of the initial insult is something that's really 
critical. That's--I think that's part of the reason that the 
kind of modeling we've been describing and the kind of research 
that we're promoting is really important for the future.
    Mr. Palmer. Mr. Chairman, if I may, if you'll indulge me 
just for a moment here, I worked for a couple of engineering 
companies before running a think tank, and unless things have 
changed dramatically in the last 30 years, we have a patchwork 
grid. It's not a uniform grid. And in some cases that could be 
helpful, but in other cases then a massive loss. Again, I want 
to emphasize--and to your point, it's a low probability, but we 
need to be prepared. A low-probability event could have 
absolutely catastrophic and deadly consequences, so I really 
think that we need to be prepared for that. We need to 
recognize the fact that it is a diverse grid, it's a patchwork, 
and that we have some ability to address that in a relatively 
short amount of time.
    So with that--and you can comment on that as you will, but, 
Mr. Chairman, thank you for indulging me, and I yield back.
    Chairman Weber. Thank you.
    Mr. Tonko, you're now recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for being here today. Secretary Walker, it's good to 
see you again. Members of this committee may not know it, but 
Secretary Walker and I went through energy deregulation in New 
York State together. And I think it was a bold move. Our 
electric markets--electricity markets may not be perfect, but 
they have blind spots. And I think Congress and States and grid 
operators and regulators can all work together to address some 
of those market failures.
    But in 2018 the toothpaste is out of the tube and drastic 
and unnecessary market interventions under the false pretense 
of an emergency to bail out uncompetitive generators like the 
one being discussed by the Administration I think are 
unacceptable. Mr. Secretary, I will not ask you to respond to 
that, but I hope you will carry that message back to DOE.
    However, I do want to ask you about the future of Puerto 
Rico's grid. As we enter hurricane season, I'm concerned about 
the fragility, the lack of resilience of that system. Can you 
give us a sense of some of the recommendations and work that 
has been done to strengthen Puerto Rico's grid for the long 
term?
    Mr. Walker. Sure. We have been working with Puerto Rico to 
develop a sophisticated modeling system that enables them to 
better operate their grid, and we've been working with the 
technical advisory committee that was established by PREPA's 
board to accomplish that. That model will also help identify 
the relaying setting changes that need to occur in order to 
better optimize the grid so that they don't sustain the 
blackouts that they've recently seen over the last year or two.
    That being said, with the work that had--has been done from 
the emergency restoration component, you know, equipment was 
put back in place consistent with the north--you know, the 
standards--NAS standards, so, you know, the lack of O&M that 
was done on the system in one sense has been cured because the 
weak poles and the weak guying on the transmission system has 
been replaced. They are continuing and still working on one of 
the major transmission lines that goes through the north-south 
corridor. We are still there. DOE is providing technical 
assistance where we can for, you know, any of the technical 
components on the system, and we're still continuing to work 
with FEMA.
    The PREPA is continuing to identify some of the strategies 
that they will employ for, you know, any events that will be 
realized, and, you know, one of the key components is we still 
have a--you know, a significant number of federal resources 
down on the island, including the generators, which were 
supplied for the critical infrastructure, the ones that were 
referred to Congressman Palmer. You know, we recognize that--
and after the--the after-action reports that we've, you know, 
started to look at with PREPA and FEMA highlight that, you 
know, the 2,000-plus generators that are down there represent 
those critical infrastructure that we really need to make sure 
that we've got, you know, the microgrid capabilities, 
distributed energy resources so that when they do realize an 
event, it has less real impact on the safety and health of the 
people in Puerto Rico.
    Mr. Tonko. Thank you. And, Mr. Gramlich, I would like to 
get your thoughts on this. Americans in Puerto Rico are reeling 
from the most devastating blackout in our nation's history. And 
obviously, Puerto Rico had unique challenges, but it is my 
understanding that many of its greatest grid vulnerabilities 
were damaged transmission and distribution systems, which is 
the cause of most disruptions in our continental United States. 
So Puerto Rico could be a testbed and model for grid 
innovation. Do you have ideas about how Puerto Rico can rebuild 
to have a stronger, more modernized grid?
    Mr. Gramlich. Sure, Congressman. I have not spent much time 
researching Puerto Rico, but, generally, we do have a lot of 
technologies and options that are available to any system that 
may be rebuilding its grid. And in fact, our mainland 
transmission grid is aging, and so we have opportunities to 
improve the technology there as well.
    One key area that DOE and OE specifically support is the 
development of microgrids or backup generation, so when we're 
talking about national security or military bases or others--or 
critical uses or hospitals or police stations or other critical 
needs, recognizing there are still tremendous efficiencies of 
the large grid and large regional markets and all of that, but 
there are also thousands of entry points and risks on such a 
system. So when you're focusing on the end-use customer and 
their critical reliability needs that may exist, those ability 
to have backup generation or islanding capability that DOE can 
help and help bring down the cost for will be very important.
    Mr. Tonko. Yes, it seems as though, in response to their 
need as an island, as a people, we can come up with a nice 
innovative response that will also serve as a template for what 
can be done across the continental United States. So with that, 
Dr. Heppert, I don't know if you wanted to say something, but 
I'm out of time, so--but if the Chair would allow for you to 
comment?
    Dr. Heppert. Sure.
    Mr. Tonko. With that, I would yield back.
    Dr. Heppert. I just wanted to point out that one of our 
faculty members, Dr. Ren, is involved in a collaboration with 
Puerto Rico telecom, which involves a number of national 
laboratories, Pacific Northwest National Lab, Oak Ridge, as 
well as NREL, to implement some innovative new technology for 
democratizing their telecommunications grid and really bringing 
it back. So I think this has been a great example of how that 
partnership that the omnibus bill talks about between the 
private sector, universities, and national laboratories can 
really help to have an impact in real-time on these kinds of 
situations.
    Mr. Walker. Chairman, if I might address Congressman 
Tonko's question?
    Chairman Weber. Go ahead. He needs all the help he can get.
    Mr. Walker. Congressman, this--there are some very specific 
items that we are working with the labs on putting into Puerto 
Rico that are cutting-edge that would--we're basically looking 
to accelerate the commercialization of them and therefore 
utilization on the mainland by putting them in Puerto Rico, so 
things like our darknet, which is the use of the black fiber 
and the optical ground wire, which is on their transmission 
system is one idea. But using correlation through this high-
fidelity sensing capability to enable optimization of their 
grid is another. That will be utilized in conjunction with the 
development of sophisticated microgrids that have the 
capability to expand and contract similar to some work that's 
being done at the Electric Power Board in Chattanooga with Oak 
Ridge National Lab, so there are a number of very specific 
things that we think Puerto Rico is uniquely poised to be able 
to integrate.
    We've been working--I've been working with Walt Higgins, 
who's CEO, and we've been working--I've been working--my team's 
been working with HUD to help to find the guidance document 
with the supplemental funding that Congress provided all to 
ensure that, you know, these type of technologies, the 
microgrids, the DERs, really do get in.
    And one of the things that, Congressman, is very 
interesting and you're very familiar with, the Greenbank, one 
of the things we've talked about is actually a critical 
infrastructure bank in Puerto Rico and the possibility of that 
to enable those 2,000-plus locations that we previously 
identified through the installation of generation to come up 
with unique ways to basically island themselves and provide the 
capabilities for public health and safety that they do.
    Mr. Tonko. Well, thank you for that info. I think it also 
speaks to the wisdom of not cutting research and innovation 
investments like ARPA-E and all. We are on the cutting-edge, 
we're an innovation economy, and we don't go backward, we need 
to go forward, so I would just say those investments are 
critical to be able to have those responses you just outlined.
    With that, Mr. Chair, I yield back.
    Chairman Weber. The Chair now recognizes the gentleman from 
Virginia, Mr. Beyer, for five minutes.
    Mr. Beyer. Mr. Chairman, thank you very much. And thank all 
of you for being with us this afternoon.
    Secretary Walker, you previously stated on February 20 of 
this year, and I quote, ``We would never use a 202 to stave off 
an economic issue. That's not what it's for.'' And now, 
FirstEnergy Solutions has recently asked the Department to use 
202 to stave off an economic issue. Does that imply or do we 
understand that you won't use a 202 for them?
    Mr. Walker. The 202 application from FirstEnergy is being 
reviewed by my department as we speak.
    Mr. Beyer. Great. Well, thank you. I'm hoping that your 
earlier strong opinion will still prevail.
    You know, the draft grid memo was circulated before the 
National Security Council last Friday, and it's widely 
understood that this draft came from the Department intended to 
fulfill the President's June 1 directive to intervene in 
planned plant closures, but there's been an awful lot of 
pushback from people who are grid operators and grid experts. 
Specifically, the CEO of Exelon, the largest nuclear generator 
in the United States, said the retirement of coal and nuclear 
plants do not constitute a great emergency that warrants urgent 
intervention from the federal government.
    Secretary Walker, the President of Electric--Electricity 
Consumers Resource Council in a study say--the large industrial 
electricity users say the latest DOE proposal would, quote, 
``devastate U.S. manufacturing.'' Have you calculated the costs 
on American businesses, specifically, American manufacturing?
    Mr. Walker. I have not.
    Mr. Beyer. The previous 403 proposal, which was rejected by 
FERC because it was unsubstantiated, they said it was going to 
cost--increase consumer costs by $8 billion annually from PJM 
alone. Now, the new plan nationalized the 403 proposal, so I 
would expect that that $8 billion is going to go up very 
significantly. Again, in putting together this draft plan, have 
you estimated what this will cost the U.S. taxpayer?
    Mr. Walker. I have not.
    Mr. Beyer. I have to give you wonderful credit for being 
able to answer these things very tightly. I would suggest, 
though, as a member of this committee, that moving forward with 
this new proposal, if it's going to devastate U.S. 
manufacturing, if it's going to add way more than $8 billion to 
the electricity cost of our American consumer, this is 
something that you and Secretary Perry and others should look 
very seriously at and should have numbers available for. I 
think it's within purview of--as a member of this committee to 
ask you to go back and do the elementary research and report 
back to the Committee on those two things, please.
    And with that, Mr. Chairman, I would like to submit for the 
record a letter I led with 36 of my colleagues asking that 
Secretary Perry and the Trump Administration cease the false 
narrative that bailing out uneconomic energy sources in 
competitive markets is needed for electrical grid resilience 
and to stop the attempts to use emergency authorities to 
intervene in planned power plant retirements.
    And I'd like to make three official points on the 
inappropriate use of emergency authorities that----
    Chairman Weber. Let me----
    Mr. Beyer. --bail out planned power plant----
    Chairman Weber. Let me say without objection.
    Mr. Beyer. Oh, thank you very much, Mr. Chair.
    [The information appears in Appendix II]
    Mr. Beyer. Number one, unlike these plant retirements in 
the PJM grid, we have a legitimate grid crisis in Puerto Rico. 
Thank you for addressing it, but we still have thousands of 
residents without power. The President himself has still not 
acknowledged the death toll, which we now understand to be 
higher than those lost on 9/11. This is his Katrina.
    Number two, this bailout plan does not actually help coal 
country. This is a short-term talking point that does nothing 
to create good-paying jobs, resilient jobs for the families in 
Appalachian. We need to work together with these resilient, 
industrious, great families to create good-paying jobs that 
will endure.
    And number three, the bailout plan ignores all the experts. 
Instead of listening to those in the universe of the world of 
energy grids and despite knowing what this would cost the 
American public, the Trump Administration is still moving ahead 
perhaps unfortunately likely because someone contributed to the 
campaign, and this is not how our democracy is supposed to 
work.
    Mr. Chairman, I yield back.
    Chairman Weber. I thank the gentleman.
    And we now recognize Dr. Foster from Illinois for five 
minutes.
    Mr. Foster. Thank you, Mr. Chairman, and thank you to our 
witnesses.
    Maybe I'd like to switch over to some sort of high-level 
direction that you need from Congress and the American people 
to think about your specifications for what you want the grid 
to accomplish in terms of reliability because there are--you 
know, people can be concerned about outages that are temporary, 
outages that--the tail risk of having an outage of six months 
or longer that can happen in some disaster scenarios. Insurance 
against the tail risk cost money, and there is a trade-off 
that, you know, everyone in life and every one in business 
faces as to how much we're willing to spend to reduce tail 
risk, you know, how much spare inventory of different 
components we need to have on hand, things like that. And so do 
you feel that you have adequate high-level guidance from 
Congress and the American people about what the specs you're 
shooting for or do you think we need a wider discussion of that 
and related issues?
    Mr. Walker. Congressman, I'll answer the question from 
DOE's perspective. The DOE is one of three organizations that 
fundamentally analyzes the day-to-day operation of the electric 
grid. FERC is the other one, NERC is the other one, and each of 
us has different lenses by which we look at the system. FERC 
looks at it from a market base, NERC from a reliability 
perspective, and DOE looks at it from a national security 
perspective.
    So from a national security perspective, the day-to-day 
reliability is not really something that we take a look at. 
Obviously, it's important. We contribute to it. We make R&D 
investments where it makes sense, but we also look at those 
investments from how they can be utilized from a national 
security standpoint. We recognize, particularly given the 
recent evolution of the grid, particularly its interdependence 
mostly on gas pipelines, that we have now reached a point 
where--different than 20 or 30 years ago where if I lose the 
wrong gas pipeline, I can lose tens of thousands of megawatts 
of generation simultaneously, and that simultaneous loss of all 
those generators can then have deleterious effects through, you 
know, cascading frequency loss, as you well know as a 
physicist. And there are real risks in the system as a result 
of it.
    And, unfortunately, when we built these systems, built the 
gas pipelines, oil pipelines, the electric transmission system, 
things like cybersecurity didn't even exist, and the word 
domestic terrorism was probably not even coined yet. But today, 
we deal with very significant risk every day. And why--while 
some may say it's a low probability, we deal with tens of 
thousands of cyber intrusions on a daily basis. It's just a 
matter of time before the sophistication level increases and 
those penetrations become real.
    We've seen this happen. We all watched the Ukraine event. 
So we can pretend that it doesn't exist, but we have hard 
evidence through actual realization of things like Ukraine that 
these capabilities exist and they're being utilized. And we 
spend our time focused on strategies that enable us to survive 
those type of events and avoid them.
    Mr. Foster. Other comments?
    Mr. Gramlich. Sure, Congressman. There is the North 
American Electric Reliability Corporation (NERC) that is in 
charge of reliability under the ERO provisions of the Energy 
Policy Act of 2005. I think that organization and the 
institutions around reliability need to be--remain in place. 
They are doing a good job. FERC overseas the markets and 
transmission system. Their role needs to be respected. I think 
what we're seeing with this presidential directive is, under 
the guise of national security, a nationalization of the 
electric system, which would be extremely damaging for the 
investment--the private investment that the industry currently 
relies on for all of the reliability and efficiencies that we 
get out of this power system.
    Mr. Foster. Yes, there's a tough situation where if, for 
example, one State decides that, for their own purposes, they 
want to subsidize a class of electrical generation and then if 
you're in a multistate interconnected grid, that looks like 
dumping that will force, you know, other States' generation 
stations to close. And so this is a complex set of problems 
because one state's, you know, necessary subsidy for some 
purpose is another--it's protectionism viewed from other 
states. And in trying to understand how we--as--nationally deal 
with those misaligned incentives between the states and not 
have the federal government come in with yet a third set of 
misaligned incentives for their own political reasons is--will 
be an ongoing challenge.
    And, let's see, I have now negative 19 seconds, so I'll 
yield back.
    Chairman Weber. I thank the witnesses for their valuable 
testimony and the Members for their questions. The record will 
remain open for two weeks for additional comments and written 
questions from members. This hearing is adjourned.
    [Whereupon, at 3:04 p.m., the Subcommittee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
